Audit Report 97-33
OFFICES, BOARDS AND DIVISIONS AND
THE UNITED STATES MARSHALS SERVICE
ANNUAL FINANCIAL STATEMENT
FISCAL YEAR 1996
Audit Report 97-33, (9/97)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MANAGEMENT'S OVERVIEW
REPORT OF INDEPENDENT ACCOUNTANTS
REPORT OF INDEPENDENT ACCOUNTANTS ON
INTERNAL CONTROLS
REPORT OF INDEPENDENT ACCOUNTANTS ON COMPLIANCE
WITH LAWS AND REGULATIONS
CONSOLIDATED PRINCIPAL FINANCIAL STATEMENTS
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND CHANGES IN
NET POSITION
NOTES TO PRINCIPAL FINANCIAL STATEMENTS
CONSOLIDATING FINANCIAL STATEMENTS
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND
CHANGES IN NET POSITION
SUPPLEMENTAL FINANCIAL AND MANAGEMENT'S INFORMATION
APPENDIX I - AUDIT DIVISION ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE THE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
This audit report contains the Annual Financial Statement of the Offices, Boards and
Divisions, and the United States Marshals Service (OBD/USMS) for the fiscal year ended
September 30, 1996. The report includes management's overview, the principal financial
statements and related notes, supplemental financial and management's information, and the
independent accountants' reports on the principal financial statements, internal controls,
and compliance with laws and regulations. The annual financial statement is the
responsibility of the OBD/USMS management. This audit was performed as part of the
Department of Justice's (DOJ) effort to implement the Government Management Reform Act of
1994 (GMRA), which requires an annual financial statement audit of the DOJ beginning with
FY 1996. The results of the annual financial statement audit of the OBD/USMS as presented
in this report was also used by Price Waterhouse LLP in its performance of the
consolidated financial statement audit of the DOJ, which was issued in a separate report
by the Office of the Inspector General (OIG), Report Number 97-24A.
The OIG contracted with Price Waterhouse LLP, Certified Public Accountants, to perform
the FY 1996 audit of the OBD/USMS consolidated Statement of Financial Position. The
audit was conducted in accordance with generally accepted government auditing standards
and Office of Management and Budget Bulletin No. 93-06, "Audit Requirements for
Federal Financial Statements." The OIG performs an oversight role in the audit
process and ensures compliance with the GMRA by monitoring the progress of the audit,
reviewing supporting workpapers, coordinating the issuance of reports, and following up on
findings and management letter issues.
As part of the DOJ-wide audit effort, Price Waterhouse LLP performed a general controls
review of the Justice Data Centers which process OBD/USMS data. The results of this work
was also considered by Price Waterhouse LLP in performing its audit of the OBD/USMS.
Additional work was performed by Price Waterhouse LLP at the OBD/USMS level, as considered
necessary to complete its audit.
Reporting Entity
The components comprising the OBD/USMS include U.S. Attorneys, U.S. Trustees, U.S.
Marshals Service, Executive Office for Immigration Review, Legal Activities and General
Programs. These components' responsibilities include representing the American people in
all legal matters involving the United States Government; supervising the administration
of bankruptcy cases and private trustees in the Federal Bankruptcy Courts; protecting the
Federal judiciary and witnesses, executing warrants and court orders, managing seized
assets, and providing for the custody and transportation of unsentenced prisoners;
improving the immigration hearing and appeal process and providing a uniform
interpretation and application of immigration law to ensure fair treatment for all
involved parties; upholding the civil rights of all Americans; enforcing laws to protect
the environment; and safeguarding the consumer from fraudulent activity.
Audit Results
The audit resulted in a disclaimer of opinion on the consolidated Statement of
Financial Position. The independent accountants were unable to substantiate the accounts
payable balance of $1 billion and the property and equipment balance of $24.5 million. The
independent accountants were unable to apply audit procedures sufficiently to determine
whether these balances were fairly stated. As a result, the scope of the independent
accountants' work was not sufficient for the accountants to express an opinion.
The independent accountants' report on internal controls identified four reportable
conditions regarding: (1) the processing, recording, and monitoring of unliquidated
obligations and accounts payable; (2) the accounting and control of property and
equipment; (3) the security at DOJ data centers and for OBD/USMS financial management
systems; and (4) the use of accrual-based accounting principles. Conditions 1, 2, and 3
were also considered to be material weaknesses. In its report on compliance with laws and
regulations, the independent accountants disclosed that two material weaknesses identified
by the independent accountants during the OBD/USMS financial statement audit were also not
reported in the DOJ's FY 1996 Federal Managers' Financial Integrity Act Report (Conditions
1 and 2).
Other conditions involving the internal control structure were noted by the independent
accountants and will be communicated, under separate letter, to management. The
independent accountants were not contracted to perform control testing sufficient to
enable the accountants to express an opinion on management's assertions over the
effectiveness of the internal control structure or compliance with laws and regulations.
Accordingly, the independent accountants did not express such opinions.
Financial and Other Operating Highlights
The FY 1996 budget for the OBD/USMS was approximately $4.5 billion; and expenses
totaled $4 billion. Approximately $1.7 billion (43 percent) was expended on Personnel
Services and Benefits; approximately $1.2 billion (30 percent) was expended on Contractual
Services; and approximately $600 million (15 percent) was expended on Grants, Subsidies
and Contributions.
#####